1a
State of New York
Court of Appeals
Decided and Entered on the
sixth day of June, 2019
Present, Hon. Jenny Rivera, Senior Associate Judge,
presiding.

SSD.26
In the Matter of Michael A. Deem,
Appellant,
v.
John P. Colangelo, &c., et al.,
Respondents.
Appellant having appealed to the Court of
Appeals in the above title;
Upon the papers filed and due deliberation, it is
ORDERED, that the appeal is dismissed
without costs, by the Court sua sponte, upon the
ground that no substantial constitutional question is
directly involved. Chief Judge DiFiore took no part.

___________________________
John P. Asiello
Clerk of the Court

2a
State of New York
Supreme Court, Appellate Division
Third Judicial Department
Decided and Entered: April 5, 2019

In the Matter of MICHAEL
A. DEEM,
Petitioner,
v

528205

DECISION AND
ORDER ON MOTION

JOHN P. COLANGELO, as
Justice of the Supreme Court,
County of Westchester, et al.,
Respondents.

Motion to dismiss proceeding.
Motion for stay of trial.
Upon the papers filed in support of the motions
and the papers filed in opposition thereto, it is
ORDERED that the motion to dismiss the
proceeding is granted, without costs, and it is further
ORDERED that the motion for a stay of trial is
denied, without costs.
Egan Jr., J.P., Lynch, Clark and Mulvey, JJ., concur.
ENTER:
Robert D. Mayberger
Clerk of the Court

3a
SUPREME COURT OF THE STATE OF NEW
YORK COUNTY OF WESTCHESTER

MICHAEL DEEM,
Plaintiff,
Index No.
68616/2017

-againstLORNA MARIE DINELLADEEM,
Defendant.

Courthouse
White Plains, New York
November 9th, 2018
BEFORE:
HON. JOHN P. COLANGELO,
Justice of the Supreme Court
APPEARANCES:
MICHAEL DEEM, Pro se
FUCHS & EICHEN, ESQS.
Attorneys for the Defendant
550 Mamaroneck Avenue
Harrison, New York 10528
BY: LINDA EICHEN, ESQ.

4a
Susan L. Giampiccolo,
Senior Court Reporter

5a
Proceedings
THE COURT CLERK: Number four, five, six,
seven and eight on the calendar, Deem versus Deem,
index number 68616 of 2017.
State your appearance for the record.
MR. DEEM: Michael Deem, plaintiff, pro se.
MS. EICHEN: Linda Eichen, Fuchs & Eichen,
550 Mamaroneck Avenue, Suite 405, Harrison, New
York, for the defendant, who is also present.
Good morning, your Honor.
THE COURT: Good morning.
MR. DEEM: Good morning, Judge.
THE COURT: You can have a seat.
We’re here principally on two orders to show
cause that were brought. One by the plaintiff; one by
the defendant. One was a motion to consolidate this
case with the Family Court proceedings and the family
offense proceedings pending before, I believe, Judge
Greenwald down in Family Court, and the other is a
motion by the plaintiff.
The motion to consolidate was brought by the
defendant, which plaintiff opposes. Plaintiff has brought
a motion to disqualify Dr. Herman, the forensic
evaluator that the Court previously appointed. And
that’s opposed by the defendant.
The Court is not dealing with or hearing any
other motions because there are no rulees in compliance
statements with respect to any of the other motions. I
believe Mr. Deem served a number of motions;
purported motions by notice of motion. So, there is no
relief from them. So, the Court under the rules is not
going to consider them at this time.
With respect to the motion to consolidate, that’s
a motion by the defendant. So, I’ll start with Miss

6a
Eichen. Would you like to add anything to your papers.
MS. EICHEN: Your Honor, just that my client
is represented by counsel. She’s working two jobs.
She’s not receiving any support from Mr. Deem. It is an
enormous expense for her to have to appear in two
courts, to have to take off from work for multiple
occasions for different courts.
The order of protection that’s pending, it’s
relevant that the forensic — that a Court see the
forensic, and hear the forensic on that order of
protection. And I just think in this case that the parties
-- It’s a marital action. I do believe that the motion to
consolidate is wise and prudent.
For example, just the last time we were here,
when we came here for whatever reason what was said
in this court was not the same thing that was said in
Family Court. And the order of protection, I had to go
because apparently that Court changed the date. I had
to go into Family Court. I had to file another petition in
order to get the order of protection extended, because
Mr. Deem didn’t appear.
THE COURT: Isn’t there a date today in Family
Court before Judge Greenwald.
MS. EICHEN: Yes. He just put that on to see
whether or not — because I told him that I was making
a motion to consolidate, which we thought we were
going to hear on Wednesday. We appeared here on
Wednesday. I thought we were getting a decision on
that. So, he just put it on today to see what the decision
was.
THE COURT: Thank you, Miss Eichen.
Mr. Deem, do you have anything you’d like to
add?
MR. DEEM: With respect to the motion to
consolidate, your Honor, I’ll rest on the papers.

7a
I would like to be heard on the other motions
that I did file. As explained in the affidavits supporting
those motions, I attempted to raise those issues before
the referee at the conference, but for whatever reason
those issues were not memorialized in the papers that
were presented to the Court.
As I explained in one of the letters to the
referee, Miss Swidler, the rulee does not say -- It
specifically states that the intent, of the rule is not to
deny a party’s ability to file motions. So, I’m at a loss
what else I can do. I raised the issue before the referee
pursuant to the rules. The issue is not memorialized and
brought to the attention of the Court. Therefore, there
is no rulee motion. But yet the intent of the rule is not
to deny motions.
So, if the Court can please give me some
guidance or some specific section of rulee on which its
declining to consider those motions, I would appreciate
it.
MS. EICHEN: Your Honor, if I just might be
heard on that?
We were here before Miss Swidler on
Wednesday with regards to -- and we had this
discussion on the other motions that Mr. Deem wanted
to bring. And we discussed those issues, and Miss
Swidler specifically told him that there was going to be
no rulee on those requests.
For example, one was that he wanted to bring a
motion to compel a joint tax return. I showed Miss
Swidler the letters that -- Mr. Deem was represented
by prior counsel and Mrs. Deem was represented by
prior counsel in April. So, I showed Miss Swidler on
Wednesday the letters from Miss Carton, who
represented Mrs. Deem, asking Mr. Deem to file jointly,
because they would save money. I showed Miss Swidler

8a
the E-mail from Mr. Kronic saying he refused to file
jointly. Therefore, for example, just on that issue, she
said there is no rulee because that was already gone
through, so you can’t go back.
The other issues were discussed. Additional
discovery dates. She said we’re ready for trial.
Standards and goals have, been exceeded. So, it’s not as
if they weren’t memorialized. She specifically told Mr.
Deem no, there are no further motions.
MR. DEEM: Your Honor, if I may?
Counsel is singing my tune, your Honor. I raised
the issue before Miss Swidler. That’s what I’m
supposed to do under the rules. She can’t just
summarily deny the motion. I have to be given an
opportunity to present my argument to the Court in
papers. Opposing counsel is given an opportunity to
respond and me rely. Otherwise, we’re just swinging
from the trees, so to speak.
With respect to me not providing support to
Miss Deem. That’s not true. I do provide child support.
It’s deposited in the marital account; the joint account.
And counsel raised one other issue. With respect
to the joint return, she mischaracterizes what the Email from my prior counsel stated. And there was no
reference to Miss Carton’s, Miss Deem’s prior attorney.
If all the e-mails are put together, it clearly shows that
I was willing to sign a joint tax return, and I’m still
willing to do so today, so long as I’m provided with the
supporting documentation for both the federal and
state tax return. To date, counsel and Miss Deem have
refused to provide the complete tax returns, which is
not just the form 1040 or
PAGE 7 MISSING

9a
We discussed the motions. And then there are
also subpoenas. I believe the subpoenas to a large
extent would fall by the waist side if I’m not provided
with the documents I’m entitled to and I did request.
My prior attorney requested in the interrogatories.
And finally, there is, as a result of not being
provided documents, and not being given the
opportunity to depose Miss Deem, I also raised at the
conference two days ago the ability to file a motion to
deem as accurate Miss Deem’s statements to her
financial advisor as reflected in the financial documents
that her financial advisor produced on, I believe it was
on November 7th or 17th, 2017, just a few days after
she was served with papers. So, there are significant
discovery issues outstanding, as well as my motions.
THE COURT: Okay. As I said initially, the
Court is not considering any motion unless there is a
rulee in compliance authorized by Miss Swidler. That’s
the purpose of the rule to have a pre motion conference,
and the Court Attorney Referee, who is more or less
acting as a filter will determine whether or not he or
she will issue a certificate under rulee if she believes
the motion is called for.
The rulee certifications that Miss Swidler
provided were with respect to an issue of consolidation,
and the issue of Dr. Herman. Those are the only two
motions that the Court is considering as I said initially.
I don’t know, Mr. Deem, if you’d like to add
anything to your papers with respect to Dr. Herman;
your motion with respect to Steven Herman.
MR. DEEM: With respect to the motion to
disqualify?
THE COURT: Yes.
MR. DEEM: He’s -- There is no legal authority
under federal or state constitution to appoint a forensic

10a
evaluator on the facts of this case. And although, the
Court issued the order appointing the forensic
evaluator on June 1st, and the conference was held, I
believe, on May 23rd of this year, the U.S. Supreme
Court rendered a decision on June 27th of this year,
which clearly explains, in my opinion, in my argument,
that there is no basis. So, therefore, he shouldn’t be
appointed.
And even if there was authority to an point the
Court evaluator, Dr. Herman is not qualified. If you
look at his CV, there is absolutely no mention regarding
Cluster B personality disorders, to include borderline
narcissism or antisocial personality disorders. And
there is — And he’s also not listed on the list of Second
Department’s approved mental health practitioners.
There is somebody who seems qualified, Dr.
Ferraro,
PAGES 1010 -13 missing
render a report as early as he can, and will do so
competently.
The Court Attorney Referee has also certified
this case trial ready. The case has been pending for well
over a year. All discovery deadlines have passed. The
Court will issue a trial ready order. The trial will be
scheduled sufficiently in the future so that Dr.
Herman’s report can be considered -- can be completed
and considered by the Trial Court.
That’s the Decision and Order of the Court on
the motions and with respect to the trial ready order.
Okay.
MR. DEEM: Your Honor, if I may?
We’re very fortunate that Referee Swidler has
actually stepped into the courtroom. Perhaps the Court

11a
can inquire as to why a rulee certification was not
rendered with respect to the issues that I raised at two
conferences.
THE COURT: Miss Swidler is not here in a
witness.
MR. DEEM: No, she’s not. But she’s here at the
convenience of the Court. There is no reason not to.
THE COURT: Thank you, Mr. Deem. The Court
is not going to inquire at this time. If you want another
conference with Miss Swidler, you can request it.
MS. EICHEN: Just a couple of things.
The last time we were here, there was supposed
to be an attorney for the children appointed. There
weren’t,

